HHS/OIG-AUDIT--Pension Plan at Blue Cross and Blue Shield of Michigan, a Terminated Medicare Contractor (A-07-96-01176)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of the Pension Plan at Blue Cross and Blue Shield of Michigan,
a Terminated Medicare Contractor," (A-07-96-01176)
November 6, 1996
Complete Text of Report is available in PDF format
(2 MB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides the results of an Office of Inspector General (OIG), Office
of Audit Services (OAS) review titled Audit of the Pension Plan at Blue
Cross and Blue Shield of Michigan, a Terminated Medicare Contractor. The
purpose of our review was to determine the excess assets that should be remitted
to Medicare by Blue Cross and Blue Shield of Michigan (Michigan) because of
the termination of the Medicare contractual relationship in 1994.
We determined that as of January 1995, Michigan had excess Medicare pension
assets of almost $12 million. Regulations and the Medicare contracts provide
that pension gains which occur when the Medicare contract terminates should
be credited to the Medicare program. Accordingly, we are recommending that Michigan
remit almost $12 million in excess pension assets to the Medicare program.
Michigan disagreed with our recommendation because they believed the calculations
should have considered future benefits and a lower retirement age. Our calculations
were based on applicable regulations and estimates used by Michigan's actuaries
to fund the pension plan. The Health Care Financing Administration, Office of
the Actuary, reviewed our report, including Michigan's comments, and agreed
with our analysis and resultant recommendation.